                                                       Office of Inspector General
        National railroad passenger corporation h Office of the Inspector General




                                                                                         The OIG’s
                                                                                        mission is to
                                                                                       detect fraud,
                                                                                           waste,
                                                                                      and misconduct
                                                                                    involving Amtrak’s
                                                                                         programs
                                                                                      and personnel,
                                                                                           and to
                                                                                    promote economy
                                                                                       and efficiency
                                                                                         in Amtrak
                                                                                        operations.




Semiannual Report to Congress
      04/01/08 – 09/30/08



                                                                                        Office of
                                                                                    Inspector General
                                                                                            1
                                                                                          Office of Inspector General




                    The OIG Vision                                                The OIG Mission

The Office of Inspector General (OIG) strives to provide        The OIG will conduct and supervise independent
Amtrak’s employees, its customers, the public, and the          and objective audits, inspections, evaluations, and
Congress with the highest quality service and programs          investigations relating to agency programs and operations;
through vigilance, timely action, accuracy, and an overall      promote economy, effectiveness and efficiency within
commitment to excellence across the broad range of OIG          the agency; prevent and detect fraud, waste, and abuse
responsibilities.                                               in agency programs and operations; review security and
                                                                                                                                  The OIG’s
                                                                safety policies and programs, and, review and make
                                                                                                                                 mission is to
                                                                recommendations regarding existing and proposed                 detect fraud,
                                                                legislation and regulations relating to Amtrak’s programs           waste,
                                                                                                                               and misconduct
                                                                and operations.
                                                                                                                             involving Amtrak’s
                                                                                                                                  programs
                                                                                                                               and personnel,
                                                                                                                                    and to
                                The Inspector General’s Guiding Principles
                                                                                                                             promote economy
                                                                                                                                and efficiency
                                     Amtrak’s Office of Inspector General (OIG) will:
                                                                                                                                  in Amtrak
H	Work with Amtrak’s chairman, the board of directors, and the Congress to improve program management.                           operations.

H	Maximize the positive impact and ensure the independence and objectivity of the OIG audits, investigations, inspections,
  and evaluations, and other reviews.
H	Use OIG audits, investigations, inspections, and evaluation, and other reviews to improve integrity and recommend
  changes to prevent fraud, waste and abuse.
H	Be innovative and question existing procedures and suggest improvements.
H	Build relationships with program managers based on a shared commitment to improving program operations
  and effectiveness.
H	Strive to improve the quality and efficacy of reports and recommendations.




                                                                                                                                 Office of
                                                                                                                             Inspector General
                                                                                                                                     3
    Letter to the Board of Directors


                                                                    NATIONAL RAILROAD PASSENGER CORPORATION
                                                                      Office of the Inspector General, 10 G Street, NE, 3W-300, Washington, DC 20002-4285




                    October 31, 2008

                    Honorable Donna McLean
                    Chairman
                    Amtrak Board of Directors

                    Dear Madam Chairman:

                    On behalf of the Amtrak Office of Inspector General (OIG), I am pleased to present this Semiannual
                    Report to Congress. The OIG Report highlights significant audits, evaluations, and investigations for
                    the six-month period ending September 30, 2008.

                    Amtrak ended FY 2008 with record ridership and revenues, well above budget forecasts, allowing
                    Amtrak to operate with one of the lowest annual subsidy levels in its thirty-seven year history.
                    While there were many larger economic drivers for these excellent business results, including higher
                    gas prices much of the year, and rising fares and service problems in the airline industry, Amtrak
                    generally positioned itself well to take advantage of these opportunities. Amtrak improved its
                    Customer Services indices on a number of routes, and Amtrak successfully partnered with a number
                    of State and regional authorities in their achievement of record ridership and revenue gains as well.

                    Against the results of a banner year for Amtrak, there remain areas where Amtrak needs to continue
                    to improve its core operations, and it is the OIG’s responsibility to assist the Board and management
                    in making these improvements. While some improvements have been made in the capital budgeting
                    processes and management of capital spending, more can be done to ensure that capital dollars are
                    being used effectively and on the more important projects. Amtrak can also do more in the area of
                    operating reform, including consolidation and rationalization of maintenance facilities and making
                    more effective use of the idle time of these critical assets.

                    With respect to OIG operations, we continued our audits and review of Amtrak’s procurement
                    operations, payments to freight railroads for access and support services, and we examined controls
                    over payroll operations, and disbursement of overtime wages.
                    Our investigators and special agents opened 88 new cases and closed 56 cases; 315 investigations
                    remain active as of September 30. The OIG obtained eight criminal indictments, six criminal
                    convictions/pleas, and one declination to prosecute; 14 other cases are pending prosecutorial review.
                    The OIG casework continues to reflect the need for Amtrak to protect better its passenger revenues,
                    and we are working with management to improve controls over the $1.4 billion revenue stream.



    Office of
Inspector General
        4
Honorable Donna McLean
October 31, 2008
Page 2




The OIG Inspections and Evaluations group is continuing to facilitate initiatives to improve the
efficiency and effectiveness of the material supply chain in providing parts and materials for rolling
stock maintenance. This unit is engaged in working with management to oversee and better monitor
the operations of the Acela product line. The OIG helped identify the need for Amtrak to initiate a
Fuel and Energy Management Steering Committee, headed by the Chief Operating Officer, and the
OIG will be more actively engaged in energy oversight in the new fiscal year.

The previous report highlighted the establishment the Office of Management and Policy within the
OIG. The unit was established to assist in the evaluation of laws, regulations, and policies affecting
Amtrak’s programs and operations. The unit will continue its oversight of Amtrak’s security
operations and fulfilling responsibilities under H.R. 1 to improve the effectiveness of Amtrak’s overall
security readiness and response capabilities.

I want to report that the OIG meets the Internet website requirements called for by the Consolidated
Appropriations Act of 2008 (Public Law 110-161). The OIG underwent a complete review of its
website, and is implementing changes to include the establishment of an OIG specific server, an
interactive website and database of reports and selected documents. The website will be consistent
with, and meet or exceed all the standards of, the requirements of Section 13 of the Inspector
General Reform Act of 2008, and Section 9 the Improving Government Accountability Act. These
improvements have significantly enhanced the OIG’s accessibility and responsiveness.

It is important that the Chairman and the Board of Directors fully support the OIG to ensure that the
Office can accomplish its statutory mission consistent with the best practices prevalent in the OIG
community. In the coming Fiscal Year, the OIG will work cooperatively to find ways to make Amtrak
management more accountable and effective in providing services to the traveling public.

Respectfully,



Fred E. Weiderhold, Jr.
Inspector General




                                                                                                               Office of
                                                                                                           Inspector General
                                                                                                                   5
                                           Table of Contents




Amtrak Profile	                                      8

Office of Inspector General Profile	                 9

Inspector General Viewpoint	                        10

Congressional Issues	                               11

Significant Audit Activities	                       12

Significant Activities: Investigations	             18

Significant Inspections and Evaluations	            24

Performance Measures	                               27

Appendices	                                         29

Reporting Requirement Index	                        37




                                                         Office of
                                                     Inspector General
                                                             7
    Amtrak Profile



                    T
                            he National Railroad Passenger Corporation,           May 1, 1971, more than half of the rail passenger routes
                            “Amtrak,” is incorporated under the District of       then operated by the freight railroad companies were
                            Columbia Business Corporation Act (D.C. Code          eliminated.
                    § 29-301 et seq.) in accordance with the provisions
                                                                                  During fiscal year (FY) 2008 Amtrak carried approximately
                    of the Rail Passenger Service Act of 1970 (Public Law
                                                                                  28.7 million passengers on up to 315 daily intercity trains
                    91-518). Under the provisions of the Passenger Rail
                                                                                  on more than 21,100 route miles serving 513 communities
                    Investment and Improvement Act of 2008 (Public
                                                                                  in 46 states, the District of Columbia, and three Canadian
                    Law 110-432; 49 U.S.C. § 24302), Amtrak’s Board of
                                                                                  provinces. During fiscal year 2008, Amtrak ridership was
                    Directors will be reorganized and expanded to nine
                                                                                  up by more than 11 percent and ticket revenues were up
                    members. The company is operated and managed as a
                                                                                  by more than 14.2 percent over the fiscal year 2007.
                    for-profit corporation providing intercity rail passenger
                    transportation as its principal business.                     In terms of market-share, Amtrak serves 63 percent
                                                                                  of the combined airline-intercity rail market between
                    Congress created Amtrak in 1970 to take over, and
                                                                                  Washington, D.C., and New York City. More than
                    independently operate, the nation’s intercity rail
                                                                                  800,000 people commute every weekday on Amtrak
                    passenger services. Prior to this America’s private freight
                                                                                  infrastructure or on Amtrak-operated commuter trains
                    companies ran passenger rail as required by Federal
                                                                                  around the country under contracts with state and
                    law. Those companies reported they had operated their
                                                                                  regional commuter authorities. Amtrak employs about
                    passenger rail services without profit for a decade or
                                                                                  18,400 persons, of whom about 16,000 are agreement-
                    more. With this in mind, when Amtrak began service on
                                                                                  covered employees. These employees work in on-board
                                                                                                     services, maintenance of way, police,
                                                                                                     station and reservations services, and
                                                                                                     other support areas.
                                                                                                     Amtrak owns the right-of-way of more
                                                                                                     than 363 route miles in the Northeast
                                                                                                     Corridor (NEC; including Washington,
                                                                                                     DC-New           York       City-Boston,
                                                                                                     Philadelphia-Harrisburg, and New
                                                                                                     Haven, CT-Springfield, MA) and 97
                                                                                                     miles in Michigan. Amtrak owns 105
                                                                                                     station facilities, and is responsible
                                                                                                     for the upkeep and maintenance of
                                                                                                     an additional 181 station facilities
                                                                                                     and 411 platforms. Amtrak owns 17
                                                                                                     tunnels and 1,186 bridges. It owns
                                                                                                     most of the maintenance and repair
                                                                                                     facilities for its fleet of about 2,600
                                                                                                     cars and locomotives. Outside the
                                                                                                     NEC, Amtrak contracts with freight
                                                                                                     railroads for the right to operate over
                                                                                                     their tracks. The host freight railroads
                                                                                                     are responsible for the condition of
                                                                                                     their tracks and for the coordination
                                                                                                     of all railroad traffic.




    Office of
Inspector General
        8
                                                                          Office of Inspector General Profile



A
          mtrak’s Office of Inspector General (OIG) was       and credit card purchases for transportation and food
          established as a statutory entity on April 1,       services on board Amtrak trains.
          1989, in accordance with the 1988 amendments
(P.L. 100-504) to the Inspector General Act of 1978 (P.L.     Legal Counsel is responsible for providing legal assistance
95-452; 5 U.S.C. Appendix 3). The OIG is an independent       and advice to the Inspector General, Audits, Inspections
and objective entity within Amtrak whose mission is to        and Evaluations, and Investigations. Counsel provides
detect fraud, waste, and misconduct involving Amtrak’s        legal and investigatory directions to Investigations,
programs and personnel; to promote economy and                coordinates with outside attorneys including local and
efficiency in Amtrak operations; and, to keep Congress        federal agencies and law enforcement attorneys, and
and the Amtrak Board of Directors fully informed about        appears in court on behalf of the OIG and its employees.
problems and deficiencies, and the necessity for, and
progress of, corrective action.
                                                              Inspections and Evaluations:
The OIG investigates allegations of violations of criminal
and civil law, regulations, and ethical standards arising     Inspections and Evaluations is a hybrid unit whose
from the conduct of Amtrak employees in performing            staff have specialized skills in engineering, safety,
their work. The OIG audits, investigates, inspects, and       labor/employee relations, mechanical maintenance
evaluates Amtrak operations, policies, and procedures,        operations, strategic planning, and finance. This group
and assists management in promoting integrity, economy,       conducts targeted inspections and evaluations of Amtrak
efficiency, and effectiveness.                                programs, providing assistance to managers in their
                                                              efforts to determine the feasibility of new initiatives and
Amtrak’s Office of Inspector General is led by Fred E.
                                                              the effectiveness of existing operating methodologies.
Weiderhold, Jr. The OIG consists of four groups: Audits;
                                                              The inspection and evaluations process they utilize,
Investigations; Inspections and Evaluations; and,
                                                              whether requested or mandated, consists of independent
Management and Policy. Audits is headed by Gary E.
                                                              studies and analytical reviews that often serve as the
Glowacki; Inspections and Evaluations is headed by
                                                              cornerstone for strategies to improve cost efficiency and
Calvin Evans; Investigations, and legal counsel, is headed
                                                              effectiveness, and the overall quality of service delivery
by Colin Carriere; and, Management and Policy is headed
                                                              throughout Amtrak.
by Bret Coulson. The OIG has field offices in Washington,
DC, Baltimore, Wilmington, Philadelphia, New York,
Boston, Chicago, and Los Angeles.                             Management
                                                              Management and
                                                                         and Policy:
                                                                             Policy:

Audits:                                                       Management and Policy provides mission and
                                                              administrative support services to the OIG by managing:
Audits is responsible for conducting independent              budget formulation and execution; policy development;
reviews of Amtrak’s internal controls and recommending        human resources, education, and training; dissemination
improvements to better safeguard its assets; testing the      of OIG information; human resources; and OIG facilities.
reliability of financial reporting and providing accounting   Management and Policy ensures performance quality
counsel over company operations; reviewing information        and compliance with current and emerging government
technology programs and information security;                 regulations, directives, and mandates. The office is the
reviewing procurements and material acquisitions for          primary liaison with the Government Accountability
appropriateness of cost, pricing, and compliance with         Office, and other government departments and agencies.
applicable grant and/or contract terms and conditions;        Management and Policy has primary responsibility for
and, monitoring compliance with laws and regulations.         Amtrak’s security oversight; and, works closely with,
                                                              and provides oversight on, the policy, programs, and
Investigations
Investigations and
               and Legal
                   Legal Counsel:
                         Counsel:                             procedures for Amtrak’s Office of Security Strategy and
                                                              Special Operations, and the Amtrak Police Department.
Investigations is responsible for investigating various
types of fraud and abuse particularly allegations
of financial wrongdoings, kickbacks, construction
irregularities, bribery, and false claims; performing
reviews of Amtrak’s safety and security programs;
recommending to the company better internal controls
to prevent fraud and abuse; and, reporting violations of
law to the Attorney General and prosecutors. It is also
charged with reviewing and safeguarding Amtrak’s cash                                                                           Office of
                                                                                                                            Inspector General
                                                                                                                                    9
    Inspector General Viewpoint



                    A
                              s stated in my cover letter, Amtrak ended FY         Shortly after the close of the Fiscal Year, Congress passed
                              2008 with record ridership and revenue results,      a rail safety bill, which included the Passenger Rail
                              posting an 11.1 percent increase in total            Investment and Improvement Act as an amendment (P.L.
                    ridership and a 14.2 percent increase in total passenger       110-432 ). This multi-year reauthorization is a landmark
                    revenue over FY 2007. While Amtrak’s overall year-end          event for Amtrak, in terms of allocating Federal dollars
                    business results have not been audited, it is projected that   as operating and capital subsidies for Amtrak for the
                    Amtrak’s net operating losses are $381 million, which is       next five years, as well as requiring Amtrak to undertake
                    at or near its lowest levels since Amtrak’s inception.         major reforms and initiatives in several areas.
                    Amtrak enters the new fiscal year amidst considerable          The OIG views the Passenger Rail Investment and
                    uncertainties in the market place. Amtrak must prepare         Improvement Act as a reconfirmation of Congress’s
                    itself and be ready to adjust its operations to weather the    support for national passenger rail service and as a
                    ongoing economic downturn and resulting recessionary           significant opportunity for Amtrak to grow responsibly
                    pressures, which will most likely continue into FY 2010.       its major business services. The authorization allows the
                    Amtrak’s ridership gains outside the Northeast Corridor        states to participate more in the development of their rail
                    appear to be holding going into the First Quarter, mirroring   corridor services, allocating $1.9 billion in new intercity
                    a pattern affecting transit systems, which will bode           passenger rail grants, and an additional $325 million in
                    well. However, the company is legitimately concerned           congestion relief grants.
                    about the softening of the business travel market in
                                                                                   The OIG plans to work closely with Amtrak management
                    the Northeast and ridership losses on Acela. The OIG
                                                                                   and the new Amtrak Board of Directors to ensure
                    is reviewing the capacity and train set assignments for
                                                                                   compliance with the spirit and letter of this landmark
                    Acela, and we are encouraging Amtrak to manage the
                                                                                   legislation.
                    Acela product very closely to ensure that the reliability
                    and marketability of the business line is protected.




    Office of
Inspector General
       10
                                                                                                       Congressional Issues




Legislation and Regulations Reviewed                           During the semiannual period, the OIG performed
Legislation and Regulations Reviewed
                                                               reviews of several pieces of pending legislation and
Section 4(a) of the Inspector General Act requires the         met with Congressional staff from House and Senate
Inspector General to review existing and proposed              Appropriations and Authorization committees to discuss
legislation and regulations relating to Amtrak’s programs      potential impacts that pending legislation would have on
and operations and to make recommendations concerning          both Amtrak’s operations as well as impact on the OIG
their impact. The OIG uses results from its audits,            mission. The current six month period saw significant
inspections and evaluations, investigations, and legislative   congressional activity relevant to Amtrak. These activities
experiences as the basis for its recommendations to            included the consideration of the annual appropriations
Congress. During the reporting period, the OIG reviewed        for the OIG and Amtrak, and the passage of both an
13 proposed changes to legislation, regulations, policy,       Amtrak reauthorization and the OIG’s underlying
and procedures that could affect Amtrak and provided           Inspector General reauthorization.
comments both internally within, and to, the relevant
                                                               The specific legislation reviewed is found in Appendix 5.
Congressional committees and staff.




                                                                                                                                 Office of
                                                                                                                             Inspector General
                                                                                                                                     11
    Significant Audit Activities


                    Procurement and Material                                     was to determine whether the cost or pricing data
                    Management Issues                                            submitted by Judy Company was accurate, complete,
                                                                                 and current. The results of the audit indicated that Judy
                                                                                 Company’s submitted costs were not entirely accurate,
                    Fuel Supply - Gas City Contract
                                                                                 complete, or current. Specifically, the OIG questioned a
                    $423,223.86 in questioned costs
                                                                                 total of $230,733 which resulted from: duplicate billing
                    Audit Report 403-2008 – Issued 05/28/08
                                                                                 of material costs; equipment costs which were not
                    The Office of Inspector General (OIG) – Audits completed     computed in agreement with contract provisions; and,
                    a review of payments to Gas City Ltd., a locomotive fuel     corresponding reductions for overhead and profit.
                    delivery vendor.The purpose of the review was to determine
                                                                                 The OIG recommended that Amtrak pursue a price
                    whether Gas City Ltd. delivered fuel to Amtrak’s Chicago
                                                                                 reduction for the grouting modifications in the amount
                    and New Orleans facilities in accordance with agreement
                                                                                 of $230,733. Amtrak’s procurement department agreed
                    provisions, whether Amtrak correctly paid Gas City Ltd.
                                                                                 with the findings and recommendation.
                    for the deliveries, and whether management’s controls
                    over the fuel process are adequate and effective.
                                                                                 JJID Inc. Overbrook Drainage Improvement
                    The OIG found that Gas City Ltd. did not deliver fuel to     Project
                    Amtrak’s Chicago and New Orleans facilities in accordance    Questioned Costs $122,697
                    with agreement provisions, that Amtrak overpaid Gas          Audit Report 209-2008 – Issued 9/3/2008
                    City Ltd. $423,223.86 for fuel delivered to Chicago and
                                                                                 On March 21, 2007, Amtrak entered into a contract
                    New Orleans, and that management’s controls over the
                                                                                 with JJID, Inc. to perform drainage improvements from
                    fuel process are inadequate and ineffective.
                                                                                 Overbrook to Merion, PA on the Harrisburg line. The
                    The OIG recommended that Procurement and Material            contract was awarded at a not-to-exceed total dollar
                    Management revise existing policies and procedures           limitation amount of $827,000 subject only to downward
                    for the purchase, receipt, and payment of diesel fuel;       revision based upon Amtrak post award audit. The total
                    the implementation of various controls to improve the        project cost including change orders and profit was
                    process and prevent future overpayments to vendors;          $1,051,597.
                    that management comply with contract provisions and
                                                                                 The OIG audit of the contractor’s records included the
                    document all changes by written supplement; and, that
                                                                                 review of supporting documentation for the contractor’s
                    management seek recovery of the $423,223.86 from Gas
                                                                                 project cost incurred report and relied on a technical
                    City Ltd. Management agreed and the vendor reimbursed
                                                                                 review by Amtrak’s Engineering Department. The OIG
                    the entire amount of the overcharges.
                                                                                 identified $122,697 in questioned costs. These costs
                                                                                 were primarily the result of the contractor’s failure to
                    Thames River Bridge Project, Grouting Program:
                                                                                 use an appropriate method for calculating general and
                    Audit of Subcontractor Judy Company
                                                                                 administrative (G&A) expense.
                    Incorporated
                    Question costs of $230,733.
                                                                                 DMJM Harris Inc. – East River Tunnel Ventilation
                    Report 306-2007 – Issued 9/10/08
                                                                                 Questioned Costs $102,112
                    In September 2005, Amtrak entered into a contract            Audit Report 208-2008 - Issued 9/5/2008
                    with Cianbro Construction Company to replace the
                                                                                 On June 18, 2007, Amtrak agreed to a second modification
                    movable span on the Thames River Bridge in New
                                                                                 of a contract with DMJM Harris Inc. for additional hours
                    London, Connecticut.       The contract was modified
                                                                                 and costs regarding their Construction Management
                    in November 2006, due to an emergency situation
                                                                                 Services of the Rehabilitation of the East River Tunnel
                    resulting from unexpected movement of two bridge
                                                                                 Ventilation Facility at Long Island City, New York. This
                    piers. The modification added a grouting program that
                                                                                 modification in the amount of a not to exceed limit of
                    was designed to stabilize the river bottom below the
                                                                                 $3,188,549 extended the construction management
                    bridge and prevent the bridge piers from moving. The
                                                                                 services for an additional 542 calendar days to September
                    modification total for the grouting program was set at
                                                                                 30, 2008.
                    a cost not to exceed $11,089,625. Cianbro Corporation
                    subcontracted with Judy Company of Kansas City, Kansas       Based upon the review of the supporting payroll
                    to perform drilling and grouting work.                       documentation, the OIG questioned $102,112 of the
                                                                                 proposed amount. The OIG analysis of the Fully Burdened
                    The OIG completed a limited scope review of $5,053,134
                                                                                 Labor Rates determined that a sample of workers tested
                    of costs submitted by Judy Company for work performed
                                                                                 were over billed a total of $36,497 from April 7, 2007 thru
                    on the grouting program. The objective of the audit
    Office of                                                                    December 28, 2007, and for the period of December 29,
Inspector General
       12
                                                                                        Significant Audit Activities


2007 thru May 23, 2008 the project was over billed a total   H	Copies of all manually issued tickets were not
of $65,615. The OIG recommend that the Procurement             maintained by the bookkeeper;
Department attempt to collect the questioned costs and
                                                             H	Some of the manually issued tickets were not properly
use the OIG findings in negotiations. Responses were
                                                               recorded in the control log;
pending at the end of the reporting period.
                                                             H	Not all ticket agents are being advised of monthly
Accounting and Reporting Procedure                             shortages that exceed $24.99 and consequently not
Issues                                                         repaying the shortage amount;
                                                             H	Reimbursements for station expenses were made for
Employee Expense Receipt Compliance Audit                      items not listed in Station Accounting Procedures;
Audit Report 402-2008 – Issued 06/30/08
                                                             H	The cashier and bookkeeper shared the same secured
The OIG completed a limited scope review of Employee           area, which is not good internal control; and,
Expense Receipt procedures. The objective of the
                                                             H	The amount of cash the cashier maintains on hand
analysis was to determine whether union employee
                                                               appeared excessive and should be reduced.
reimbursement procedures were complied with and
whether appropriate, properly supported and valid            Management agreed with the OIG recommendations.
receipts substantiate the reimbursements.
                                                             Procurement Card Review
The OIG determined that union employee reimbursement
                                                             Audit Report 206-2008 – Issued 9/30/2008
procedures were not followed and reimbursements were
made without valid receipts. A union employee was            The OIG reviewed the controls over procurement card
terminated by management for dishonesty relating to          utilization and related processes and the adherence to
documentation submitted for reimbursements.                  compliance with Amtrak’s Procurement Card Policy. The
                                                             review disclosed that procurement cards were used for
The OIG recommend that responsible management
                                                             purchases of office equipment, furniture, fuel, printing,
improve controls and follow procedures to ensure valid
                                                             entertainment purposes, memberships and dues and
receipts were reviewed prior to making reimbursements
                                                             hotel parking. The OIG disclosed that cardholders split
to employees. Management agreed with the OIG findings
                                                             transactions and exceeded the cardholder’s maximum
and issued instructions to all employees clarifying the
                                                             transaction dollar limit. In the review, the OIG identified
procedures and expectations for reimbursements.
                                                             that Amtrak paid state sales tax on purchases in states
                                                             where Amtrak is tax exempt.
Station Audit – South Station Boston,
Massachusetts                                                The OIG recommended that management communicate
Report 302-2008 - Issued 9/30/08                             to procurement cardholders and their supervisors the
                                                             responsibility of compliance with Amtrak’s Procurement
In accordance with the Office of Inspector General-Audits
                                                             Card Policy and the Procurement Card Manual.
Annual Audit Plan, the OIG performed a station audit of
the Boston, Massachusetts South Station ticket office.       Management will respond to the audit findings in the
The purpose of the review was to:                            next reporting period.
H	Test for compliance with station accounting and
                                                             Audit of Amtrak’s Internal Control Plan
  reporting procedures.
                                                             (ICP) compliance with the Federal Railroad
H	Verify assigned working funds, ticket stock and other      Administration (FRA) Regulations – Late
  assets;                                                    Submissions
                                                             Audit Report 102-2007 - Issued 9/30/2008
H	Evaluate the safeguard over these assets; and,
                                                             The Office of Inspector General (OIG) conducted an
H	Appraise the efficiency of station operations.
                                                             audit of Amtrak’s compliance with the Federal Railroad
The OIG review indicated that the Boston South Station       Administration (FRA) regulation (Title 49, Part 225 of the
ticket office and the baggage room were in general           Code of Federal Regulations) concerning the accurate
compliance with station accounting and reporting             capturing and reporting of accident/incident data to the
procedures. However, the OIG observed the following:         FRA.
H	Manually issued tickets were not always issued in          The audit detected instances of late submissions
  sequential order;                                          of reports by the field offices to Amtrak’s Central
                                                             Reporting Office (CRO). The OIG found in its review of
                                                             55 judgmentally selected monthly summary accident/                Office of
                                                                                                                           Inspector General
                                                                                                                                  13
    Significant Audit Activities


                    incident reports that 14 (24 percent) were submitted         Contract Issues
                    after the Amtrak’s required 72 hours time frame. These
                    late submissions of reports were violations of Amtrak’s
                                                                                 Host Railroad Contract Administration and
                    ICP procedures but not FRA guidelines. However, the
                                                                                 Operations Management Controls
                    reports were submitted to FRA within the FRA required
                                                                                 Potential cost saving of $341,000 per annum
                    time frame. The OIG recommended, and management
                                                                                 Audit Report 401-2008 – Issued 08/21/08
                    agreed, to establish action plans to redress the problem
                    of late submissions.                                         The OIG completed a review of the Host Railroad Contract
                                                                                 Administration (HRG) and Operations Management (CA)
                    Audit of Amtrak’s Internal Control Plan                      departments’ internal controls. The objectives of this audit
                    (ICP) compliance with the Federal Railroad                   were to identify management controls for the railroad
                    Administration (FRA) Regulations – Non-                      contract administration and negotiation as it relates to
                    compliance with Damage Cost Reporting.                       the administration, and to evaluate the adequacy and
                    Audit Report 102-2007 - Issued 9/30/2008                     effectiveness of these controls. The audit covered the
                                                                                 period from January 1, 2007 through December 31, 2007
                    OIG found Amtrak non-compliance of the FRA guidelines
                                                                                 and prior years for some areas.
                    with respect to updating original estimates of equipment
                    damages. Amtrak’s mechanical field locations did             The OIG found that management’s controls are
                    not submit actual cost for equipment damage to CRO           inadequate and ineffective. The current billing review
                    as required by FRA guidelines. The OIG reviewed 13           process before approving payment to host railroads is
                    accidents/incidents with equipment damage and found          not adequate to detect material errors. The OIG found
                    that six had estimated damage costs that exceeded the        that: railroad monthly billings are not thoroughly and
                    threshold for reporting actual damage costs and were         completely reviewed before payment; the current on time
                    not reported to FRA.                                         performance (OTP) billing process consistently allows
                                                                                 and results in significant over-billing; the adoption of
                    For those six incidents which exceeded the $7,700
                                                                                 a delay avoidance incentive (DAI) could result in a cost
                    threshold, Amtrak field offices did not track the actual
                                                                                 saving of $341,000 per year; the current organizational
                    damage costs and therefore were unable to submit any
                                                                                 structure does not maximize operational efficiencies
                    actual equipment damage costs to CRO as required by
                                                                                 and effectiveness; responsibilities and functions are not
                    FRA guidelines. The difference between the estimated
                                                                                 clearly defined and separated; HRG and CA departments
                    and actual amounts for the six incidents are not known
                                                                                 do not have formal written procedures; CSX, Norfolk
                    because actual damage costs were intermingled with
                                                                                 Southern, and Union Pacific amendment agreement
                    maintenance cost.
                                                                                 changes are not current; HRG does not actively monitor
                    FRA guidelines require the submission of estimated           operational changes that affect host railroad agreements
                    equipment damage cost in excess of $7,700. Furthermore,      and billings; and generally, the bases for flat rated costs
                    if the difference between the initial estimated and actual   are not documented.
                    damage cost exceeded 10 percent then the actual costs
                                                                                 The OIG recommended fundamental changes in the way
                    must be reported. These actual damage costs should be
                                                                                 Amtrak handles its host railroad contracts including: an
                    forwarded to CRO to be submitted to FRA.
                                                                                 internal reorganization for the groups dealing with host
                    The OIG recommended that Amtrak’s Chief Mechanical           railroads; a change in the billing review process from
                    Officer should establish an effective process to identify    untimely back-end audits to a timely front-end thorough
                    actual equipment damage costs in order to comply with        and complete review; and, a contractual change in OTP
                    FRA guidelines. Specifically, Amtrak Field offices should    incentives to adopt DAI or similar process.
                    contact Amtrak General Accounting Department to
                                                                                 Management will respond in the next reporting period.
                    set up a separate work element to capture the actual
                    costs of repairs related to accident damages. All actual
                                                                                 Leasing Practices
                    equipment damage costs should be submitted to CRO
                                                                                 Audit Report 301-2007 Issued 06/11/08
                    to ensure that estimate and actual equipment damage
                    cost is documented and facilitate submission of a            The National Railroad Passenger Corporation (Amtrak)
                    revised report to FRA when the significant difference (10    leases retail space to a variety of commercial businesses
                    percent variance) threshold between the estimated and        in Amtrak owned railroad stations. Amtrak’s Real Estate
                    actual cost occurs. Management will respond in the next      Development Department is responsible for managing
                    reporting period.                                            and monitoring approximately 190 leases with annual
                                                                                 revenue exceeding $14 million. The OIG reviewed
    Office of                                                                    a sample of lease files and concluded that current
Inspector General
       14
                                                                                           Significant Audit Activities


procedures used to award leases are appropriate for the         Grant Issues
size and geographical characteristics of Amtrak’s real
estate portfolio.
                                                                Review of FLS East River Tunnel Grant
The OIG concluded that the Real Estate Department is            Agreement
competitively awarding leases by soliciting bids from           ($4.1 million in lost funds)
a number of interested parties and negotiating lease            Audit Report Number 219-2006 – Issued
contracts using a variety of criteria including market          06/03/08
research. However, The OIG noted the following issues
                                                                The OIG conducted an audit of the New York Fire and Life
that warrant management attention:
                                                                Safety’s (FLS) East River Tunnel (ERT) Ventilation-Penn
H	Formal on-site inspections of leased space are not            Station Project to determine whether Amtrak adhered to
  conducted to assess tenant compliance with lease              and complied with all the terms and conditions of the
  contracts;                                                    Grant Agreement, the expenditures were reasonably
                                                                related to the project, if Amtrak has in place an
H	One of the leases reviewed did not include information
                                                                accounting system capable of accurately tracking the
  that clearly defined the space that the tenant was
                                                                allowable project funds, and if the Long Island Railroad
  leasing;
                                                                (LIRR) reimbursements were received in accordance with
H	Lease contracts do not include specific utility escalation    prescribed cost-sharing agreements.
  clauses for extraordinary increases outside the norm
                                                                Although the OIG found that Amtrak complied with the
  that would allow Amtrak to increase lease payments
                                                                terms and condition of the Grant Agreement, the audit
  in periods in which utility costs rise more than the
                                                                did disclose that the cost-sharing percentages used to
  scheduled increases negotiated when the contract
                                                                allocate ERT project expenses were outdated as they
  was awarded; and,
                                                                were based on 1987 operations. This resulted in Amtrak
H	Background security screenings of tenant employees            paying an estimated $4.1 million more than its required
  are not a requirement of current Amtrak lease                 share. This would have allowed Amtrak to put $4.1
  agreements.                                                   million of funds to better use on Amtrak’s share of future
                                                                FLS projects.
The OIG recommended that Real Estate: Continue with
its practice that it began in 2000 to include detailed
descriptions of leased space for all renewed and new            Marketing and Sales Issues
leases; make stations managers aware of the terms and
conditions of lease contracts in order to monitor tenants;      Special review of Salinas Ticket Office
and, work with appropriate Amtrak departments to                outstanding Bank Reconciliation charge-backs
incorporate specific utilities escalation clauses, and tenant   and employee abnormal shortages
employee background checks into lease contracts.                As of February 2008, $6,402 in SNS Bank Reconciliation
                                                                charge-backs and $1,213 in SNS employee abnormal
Management agreed with OIG recommendation.
                                                                shortages remained unresolved
                                                                Audit Report Number 501-2008 – Issued
Delaware Car Company Acela Refinishing
                                                                07/24/2008
Project
Questioned Costs $126,566                                       The OIG completed a special audit of outstanding Bank
Audit Report 216-2008 – Issued 9/18/2008                        Reconciliation charge-backs issued to the Salinas (SNS)
                                                                ticket office to determine the validity of the charge-
At Management’s request, the OIG performed a review
                                                                backs; to identify the reasons for the discrepancies; and
of the cost proposal from Delaware Car Company for the
                                                                to evaluate if timely management actions had been
refinishing of 40 Acela power cars. The total proposed
                                                                taken to address the charge-backs.
cost for refinishing was $1,283,113.
                                                                Additionally, the OIG conducted a limited analysis of the
Based upon the review of supporting documentation,
                                                                over/short activity at the SNS ticket office to determine if
the OIG questioned $126,566 of the proposed amount.
                                                                timely management actions had been taken to address
The OIG analysis showed that material requirement costs
                                                                any abnormal employee shortages identified to ensure
were duplicated in the calculation of the straight time
                                                                compliance with station policy and procedures.
labor overhead rate. The OIG recommended that the
OIG findings be used in downward revision of the final          The OIG review disclosed that a total of $6,402 in
project cost.                                                   outstanding Bank Reconciliation charge-backs, as of
                                                                February 2008, resulted primarily from station employees’
                                                                failure to remit a portion or the entire amount of cash/           Office of
                                                                                                                               Inspector General
                                                                                                                                      15
    Significant Audit Activities


                    check receipts reported in their sales reports.                H	Implemented the test environment in secure subnet,
                                                                                     and bug tracking system.
                    The OIG found instances where the armored car service
                    failed to deliver remittance bags picked up at the             H	Upgraded the OIG Citrix farm by implementing the
                    SNS ticket office to the bank drop off location to be            recommendations from Convergence Technology
                    deposited. Regarding employee abnormal shortages, the            Consulting.
                    OIG identified a total of $1,213 in unresolved abnormal
                                                                                   H	Implemented     the Print-to-PDF feature for the
                    shortages as of February 2008.
                                                                                     applications in secure subnet.
                    The OIG noted that station policy and procedures on
                    timely resolution of SNS employee abnormal shortages
                                                                                   Implementation of OIG IT Strategic Plan Begins
                    and Bank Reconciliation charge-backs were not complied
                                                                                   as Secure Subnet Phase IV
                    with. The OIG recommended that management initiate
                                                                                   Charter approved on 5/28/08
                    recovery actions against the parties involved, if deemed
                    cost effective. The OIG further recommended that               In May 2008, the IG and all Deputy Inspectors General
                    management ensure compliance with the station policy           (DIG) endorsed a comprehensive IT Strategic Plan for the
                    and procedures related to the finding areas. Management        department which will cost about $3 million over the next
                    agreed with OIG findings.                                      three years, and add three additional positions in the IT
                                                                                   Audits and Services group. A Project Charter for the OIG
                    Management agreed with the initial OIG findings in its
                                                                                   Secure Subnet Phase IV and accompanied Project and
                    response to the draft audit report, and management’s
                                                                                   Resource Plans were approved to implement long-term
                    official response to the final audit report was not received
                                                                                   strategic vision for the department’s technology needs.
                    prior to the close date for the semiannual report.
                                                                                   The Project Plan breaks down the OIG IT Strategic Plan
                    Information
                    Information Technology
                                Technology                                         into discrete groups of State of Good Repair, Mandatory,
                                                                                   and Discretionary items, and prioritizes these efforts
                                                                                   based on staffing resources. This plan will help the OIG
                    OIG Secure Subnet/TeamMate Upgrade Project
                                                                                   comply with the new Inspector General Reform Act of
                    (Phase III) Successfully Completed
                                                                                   2008, and move the department from a disjointed, paper-
                    Closing memorandum issued 6/25/08
                                                                                   based operation to an integrated, automated workflow
                    As the OIG reported earlier, Amtrak OIG has implemented        processes within the subnet. Phase IV program was
                    a secure subnet and TeamMate application to take               launched in June 2008.
                    advantage of electronic workpapers, and automate the
                                                                                   The milestones achieved to date include the following:
                    audit processes. All audit offices are now successfully
                    using OIG Secure Subnet and TeamMate.                          H	Creation of a secure email solution for the amtrakoig.
                                                                                     com domain.
                    During this semi-annual period, the OIG successfully
                    completed the Phase III project to upgrade the secure          H	Completion of the design effort for the new OIG
                    subnet and TeamMate. The following were the major                website.
                    accomplishments and deliverables of this project:
                                                                                   H	Procurement of the Continuous Controls Monitoring
                    H	Upgraded the TeamMate software to version 8.1.3                (ACL CCM) software and implementation services for
                      and then 8.1.4, and updated the protocol document              the Purchase-to-Payment (P2P) and Payroll modules.
                      and master library to reflect the changes as a result of
                                                                                   H	Selection of a Case Management System for the
                      software upgrade and the lessons learned from using
                                                                                     Investigations unit.
                      the application.
                    H	Implemented 360° reporting to generate audit programs,       Management Responses over 180 Days
                      and Full Scope and Limited Scope audit reports.              Old for Which Corrective Action Has Not
                                                                                   BeenBeen
                                                                                   Not   Completed
                                                                                            Completed
                    H	Hardened the OIG internal firewall by reviewing and
                      tightening the firewall rules.
                                                                                   Union Pacific Audit
                    H	Improved      configuration     management      and
                                                                                   $144,659 Excess Billings Identified
                      monitoring of the OIG servers, switches and
                                                                                   Audit Report 407-2004 – Issued 03/07/2007
                      firewalls using the Ecora Auditor Professional
                      software; and achieved full compliance with Amtrak           Effective January 1, 2000, Amtrak entered into an
                      information security policies and SANS best practice.        Agreement with the Union Pacific Railroad Company
    Office of
                                                                                   (UP), which consolidated the four previous contracts
Inspector General
       16
                                                                                          Significant Audit Activities


for the Southern Pacific, the Union Pacific, the Southern       Management Responses over 180 Days
Pacific Central States Line, and the Denver and Rio             Old for Which Corrective Action Has Not
Grande Western Railroads for intercity rail passenger           Not
                                                                BeenBeen Completed
                                                                      Completed
operations on tracks and properties owned by UP. Under
the agreement provisions, the UP bills Amtrak each
                                                                Mass Transit Products, Inc. - Termination for
month for specific services and facilities for intercity rail
                                                                Default for Superliner I Overhaul
passenger operations. The purpose of our audit was to
                                                                Questioned costs are $63,184.
determine the accuracy, reasonableness, and validity of
                                                                Audit Report 219-2005 – Response 1/25/2006
the charges the UP billed Amtrak for selected items and
to develop an audit adjustment claim if appropriate.            The Procurement and Materials Management Department
                                                                is still involved in ongoing settlement negotiations with
The scope of the audit encompassed the period from              the contractor and their suppliers. The questioned costs
January 1, 2002 through December 31, 2003, and                  are $63,184. The OIG will continue to monitor the
consisted of analyzing the UP’s monthly billing costs,          actions taken.
records, payments, technical opinions, vendor invoices,
Amtrak delay reports, internal/external letters and
                                                                MBTA Attleboro Agreement
memoranda, historical documentation of similar railroad
                                                                Audit Report 217-2005 – Issued 9/29/2006
billings, where available, and other information, as
deemed necessary.                                               The OIG reported that Amtrak Management proceeded
                                                                with capital improvements without formally requesting
The OIG did not audit 100 percent of the billing costs          funding from the Massachusetts Bay Transit Authority
due to resource limitations, dollar materiality, and other      (MBTA) as required by the Attleboro Agreement. The OIG
constraints. The OIG selected 14 of 23 items billed for         found that Amtrak provided approximately $13.9 million
audit accounting for more than 98 percent of the total          in capital funding for FY 2004 and FY 2005. Amtrak has
billing. The OIG found erroneous billings in 10 of the 14       finally obtained approval for approximately $1.2 million
items selected for audit, $230,282 over billed and $85,623      in funding from the MBTA since June of last year.
under billed for a net total of $144,659 due Amtrak. UP
representatives agreed with the OIG findings.
                                                                 AUDIT STATISTICS
The OIG recommended that management initiate a final             Status of Audit Projects
settlement letter and that monies due Amtrak be collected.       Audits in progress at 4/01/08	                     45
The OIG received management’s response on April 14,              Audit projects postponed or cancelled	              0
2008 agreeing with the OIG findings and indicating that          Audit projects started 	                           16
$121,808 will be collected from the UP and $22,851               Audit reports issued	                              14
from the BNSF for fueling rented locomotives.                    Audit projects in progress 9/30/08	                47

Reviews of Southern Pacific Central States Line                  Audit Findings
Questioned costs not yet resolved                                Questioned costs	                         $1,090,310
Audit Report Number: 01-506 – Response                           Unsupported costs	                                $0
09/04/2001                                                       Funds to be put to better use	            $4,107,457

Audit Report Number: 01-507 – Response                           Total	                                   $5,197,767
09/04/2001
Audit Report Number: 01-508 – Response
10/12/2001
Audit Report Number: 01-509 – Response
10/12/2001




                                                                                                                                Office of
                                                                                                                            Inspector General
                                                                                                                                   17
    Significant Activities: Investigations


                                                                                   Case Status of Investigations
                    Case Handling and Sources of
                    Allegations                                                    4/1/08 – 9/30/08	
                                                                                   Total Open Cases as of 4/1/08	                                          283
                    The OIG receives allegations from many sources, including      Closed Cases	                                                           -56
                    employees, confidential informants, Congressional              Opened Cases	                                                            88
                    sources, federal agencies and third parties. Presently, the
                    OIG is handling 315 investigations; in the last six months,    Total Ongoing Cases as of 9/30/08	                                     315
                    the OIG opened 88 cases and closed 56 cases. As chart
                    below indicates, employees and anonymous referrals
                    accounted for about 73 percent of the allegations during       Sources of Allegations
                    this reporting period, with employees being the source         4/01/08 – 9/30/08
                    of 51 of the 88 allegations, or 58 percent. All allegations
                    are reviewed, screened and resources are allocated             Amtrak Employee . . . . . . . . . . . . . . . . . . . . . . . . .  49
                    based upon, among other things, the seriousness of the         Former Amtrak Employee . . . . . . . . . . . . . . . . . . . .  2
                    allegations and potential harm to Amtrak or the public.        Anonymous Source  . . . . . . . . . . . . . . . . . . . . . . .  13
                                                                                   Confidential Informant . . . . . . . . . . . . . . . . . . . . . .  5
                    OIG Hotline                                                    Private Citizen . . . . . . . . . . . . . . . . . . . . . . . . . . . .  6
                                                                                   Referred by Internal Audit  . . . . . . . . . . . . . . . . . . .  5
                    The fraud OIG HOTLINE program has continued to                 Referred by other Amtrak Department . . . . . . . . . .  2
                    provide employees or third parties an opportunity to           Referred by Fed/State/Local Law Enforcement . . . .  2
                    report allegations of fraud, waste, abuse, and other           Other Government Agency . . . . . . . . . . . . . . . . . . .  1
                    wrongdoing. Employees can access the HOTLINE 24                Other . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  3
                    hours a day by calling Amtrak Telephone
                                                                                  People may write in confidentially to P.O. Box 76654,
                    System (ATS) number 728-3065 in Philadelphia and the
                                                                                  Washington, DC 20013. The OIG received nine telephonic
                    toll free number (800) 468-5469 if outside Philadelphia.
                                                                                  HOTLINE complaints during this reporting period, which
                    During working hours from 9:00 a.m. to 4:30 p.m., the
                                                                                  is an increase from the previous reporting period. The
                    OIG answer callers on the HOTLINE system. During other
                                                                                  majority of HOTLINE complaints received during this
                    hours or during those occasions when staff are away from
                                                                                  reporting period were made by anonymous sources and
                    the office, callers can leave a message on the HOTLINE
                                                                                  private citizens.
                    answering machine.

                     HOTLINE STATISTICS                                           Embezzlement Issues
                     4/01/08 – 9/30/08 	                              TOTAL
                                                                                  Theft Concerning Programs Receiving Federal
                     Hotline Complaints Received:	                       19
                                                                                  Funds
                                                                                  $200,000 restitution awarded to Amtrak.
                     Sources of Hotline Complaints:
                                                                                  In a previously reported case, prosecuted by the United
                     Private Citizen	                                      9
                                                                                  States Attorney’s Office, a West Coast Station Agent
                     Anonymous Source	                                     6
                                                                                  was indicted and pled guilty to two counts of violations
                     Amtrak Employee	                                      3
                                                                                  of 18 U.S.C. Section 666, Theft Concerning Programs
                                                                                  Receiving Federal Funds, for embezzling nearly $250,000
                     Other Law Enforcement Agency	                         1
                                                                                  from Amtrak by replacing cash taken into the ticket
                                                                                  office with fraudulent travel vouchers to support the
                     Classification of Complaints:
                                                                                  applicable paperwork. During this reporting period, on
                     Fraud	                                                6
                                                                                  July 31, 2008, a federal district court judge sentenced
                     Mismanagement	                                        3	
                                                                                  the former employee to nine months incarceration in a
                     Theft	                                                3
                                                                                  federal prison, three years probation and required him to
                     Abuse of Position	                                    2
                                                                                  make restitution in the amount of $200,000 to Amtrak.
                     Non-criminal/Other	                                   2
                     Criminal – Other	                                     2      Note: The original report summary may be found in the
                     False T&A	                                            1      March 31, 2008 Semiannual Report, page 12.

                     Complaints Referred To:
                     OI Field Offices	                                   12
    Office of        Management	                                          6
Inspector General    APD	                                                 1
       18
                                                                                          Significant Activities: Investigations


Theft Concerning Programs Receiving Federal                                       the misuse of funds. The Red Block division steering
Funds                                                                             committee had made several requests of a Red Block
$74,029.04 restitution awarded to Amtrak.                                         officer to submit to a review and subsequent audit.
Acting with the assistance of the United States Postal                            During Red Block’s audit several financial improprieties
Service, the OIG investigated an employee’s theft and                             were identified. One of these concerned a Red Block
embezzlement of funds from Amtrak’s internal Manual                               officer who had utilized several pre-signed checks to make
Credit Card System (MCCS), which allows manual returns                            multiple personal expenditures which were unauthorized.
to persons in connection with passengers’ purchases                               Despite several requests by the steering committee the
by credit card purchases. The OIG discovered that an                              Red Block officer failed to supply receipts which was a
Amtrak Finance Manager responsible for this system                                factor necessitating the OIG’s investigation.
had refunded $74,029.04 to his personal credit card
                                                                                  On June 3, 2008 the OIG issued an administrative report
accounts for transactions for which he had not made any
                                                                                  to management concerning the Red Block officer’s actions
corresponding purchases.
                                                                                  and as a result she was terminated. The OIG issued a
The manager confessed to OIG agents and this matter                               management report and is awaiting a response from the
was referred for prosecution to the Department of                                 Vice President of Labor Relations recommending several
Justice. As a result this manager was charged federally                           corrective measures. The Labor Relation Department
with violating U.S. Title 18, U.S.C.. 666, Theft Concerning                       was granted extensions, and the response should arrive
Programs Receiving Federal Funds. On September 23,                                soon after the reporting period has ended.
2008, the former manager pled guilty in federal court
and agreed to make full restitution prior to sentencing.                          Theft
                                                                                  Theft and
                                                                                        and Fraud
                                                                                            Fraud
Sentencing is scheduled for December 11, 2008 in the
United States District Court for the District of Columbia.
                                                                                  Theft or Bribery Concerning Programs
The OIG investigation determined MCCS had inadequate                              Receiving Federal Funds
review and control processes, which allowed the                                   Loss of more than $124,000.
manager’s activities to occur. As a result, use of MCCS                           In a previously reported OIG investigation, the OIG
has been discontinued and a new system is currently                               discovered collusion between two former Chicago
being developed.                                                                  debriefing clerks, who orchestrated a theft scheme,
                                                                                  involving 42 Lead Service Attendants, all of whom were
Unauthorized Personal Expenditures                                                terminated or resigned, with a resulting loss to Amtrak
Operation Red Block is a worker-conducted, management                             of more than $124,000. OIG referred this matter to the
and labor-supported peer prevention volunteer program.                            Department of Justice for prosecution. On September 9,
Its goal is to eliminate substance usage in the railroad                          2008, the two former Clerks were indicted by a federal
workplace.                                                                        grand jury for the United States District Court for the
                                                                                  Northern District of Illinois Eastern Division for violations
A Southwest Division Red Block division steering
                                                                                  of Title 18 U.S.C., Section 666, Theft or Bribery Concerning
committee audit resulted in an investigation into
                                                                                  Programs Receiving Federal Funds. The prosecution of
                                                                                  this matter is pending at the time of this report.
 Classification of Cases Opened
 4/1/08 – 9/30/08	                                                                Fuel Supply – City Gas Contract
 Fraud . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  19    $423,223.86 recovered.
 Theft/Embezzlement . . . . . . . . . . . . . . . . . . . . . . .  13             As a result of a joint effort and inquiry between the OIG’s
 Bribery . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  2   Investigations and Audit units the company was able to
 Kickbacks . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  1     recover $423,223.86 from a vendor in disputed funds.
 False Claims . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  4      The joint effort identified that in at least two Amtrak
 False Statements  . . . . . . . . . . . . . . . . . . . . . . . . . .  3         locations a major fuel vendor had supplied Amtrak with
 False T&A Records . . . . . . . . . . . . . . . . . . . . . . . . .  7           a lesser grade of fuel than Amtrak had contracted for.
 False Expense Reports . . . . . . . . . . . . . . . . . . . . . .  1             See Significant Audits, Audit Report 403-2008 – Issued
 Other Criminal . . . . . . . . . . . . . . . . . . . . . . . . . . . .  7        5/28/08 for details.
 Waste . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  3
 Abuse of Position . . . . . . . . . . . . . . . . . . . . . . . . . .  4         Failure to Remit Funds
 Mismanagement  . . . . . . . . . . . . . . . . . . . . . . . . . .  6            $800 recovered; employee terminated.
 Conflict of Interest . . . . . . . . . . . . . . . . . . . . . . . . .  1        OIG investigated a lead service attendant (LSA) who
 Administrative Inquiry . . . . . . . . . . . . . . . . . . . . . .  9            failed to remit Amtrak funds from on-board sales in the
 Other Non Criminal . . . . . . . . . . . . . . . . . . . . . . . .  8            amount of $3,068. As a result of OIG’s investigation and            Office of
                                                                                                                                                  Inspector General
                                                                                                                                                         19
    Significant Activities: Investigations


                    referral the LSA was prosecuted locally. In connection        Unauthorized Scrap Material Agreement
                    with that prosecution, the LSA was convicted by a plea        The OIG previously reported on an employee terminated
                    of guilty in the Circuit Court of Cook County for violating   for entering into an unauthorized agreement with a
                    Chapter 720, Act 5, section 16-1-a(1)A of the Illinois        General Electric employee to remove scrap materials
                    Compiled Statutes, 1999, as Amended. He was sentenced         from Amtrak’s 16th Street Yard in Chicago, Illinois, and
                    to one year of court supervision and ordered to pay $800      collect proceeds from the sale of the materials to a scrap
                    in restitution to Amtrak. Amtrak has received the full        yard. In conjunction with this investigation, the OIG
                    amount of the restitution.                                    issued a separate Administrative Report to Mechanical
                                                                                  Management regarding the conduct of the General
                    Fraudulent Claims                                             Electric employee. As a result of that report, Amtrak
                    Airline Frequent Travel Fraud                                 Management notified General Electric that the employee
                    A previously reported investigation described how a           involved was barred from Amtrak property.
                    number of Amtrak employees and their non-Amtrak
                    associates were submitting claims, accumulating, and          Conductor Fraud
                    redeeming frequent flyer mileage on Alaska Airlines and       $5,495.95 restitution; employee prosecution.
                    not remitting the required funds associated with those        The OIG investigated a conductor for failing to remit
                    claims. During this reporting period, OIG identified an       Amtrak funds from on-board sales in the amount of
                    additional 18 employees who participated in fraudulently      $5,495.95. On May 18, 2008, the conductor was arrested
                    claiming mileage they were not entitled to receive. At the    and on June 25, 2008 pled guilty to Larceny, under New
                    time of this report, 10 employees had been terminated,        York State Penal Code 155.25. He was prosecuted by the
                    one had resigned, one had received a formal reprimand,        State of New York and ultimately was sentenced to serve
                    one had previously transferred to another railroad, and       a supervised three year term of probation and ordered to
                    charges for four employees were dismissed.                    pay full restitution to Amtrak.
                    Note: The original report summary may be found in the
                    September 30, 2007 Semiannual Report, page 12                 Joint Investigations

                    Violation of Control Policies and Procedures                  Theft of Fleet Gasoline Credit Cards
                    $20,866 recovered.                                            Possible loss of $83,711.16.
                    The OIG determined that a $20,686 theft of inventory          The OIG worked jointly with the Government Services
                    items had occurred because an Amtrak contractor               Administration (GSA) Office of Inspector General on
                    had violated several control policies and procedures          an investigation regarding theft of fleet credit cards
                    mandated by the contractor’s agreement with Amtrak            which GSA had issued to Amtrak. It was discovered
                    and thus failed to protect company assets. As a result of     that an individual, not employed by Amtrak and without
                    the OIG investigation, the contractor agreed to absorb the    its authority, had used the stolen cards to purchase
                    loss which Amtrak had suffered, making full restitution       $83,711.16 in diesel fuel and gasoline. This individual
                    to Amtrak. OIG made several recommendations, which            was arrested on September 9, 2008 and charged with
                    have been adapted by management to ensure more                Theft of Government Property U. S. Title 18, U.S.C. 641and
                    adequate monitoring of such contracts.                        Access Device Fraud, U. S. Title 19, United States Code,
                                                                                  Section 1029. Further prosecution of this individual is
                    Fraudulent Time Keeping and Unauthorized Use                  pending.
                    of Equipment
                    Employee terminated.                                          Fraudulently Obtained Retirement Benefit
                    The OIG conducted an investigation involving an               Funds
                    Amtrak Building and Bridges foreman. The OIG received         $8,000 restitution ordered.
                    information that the foreman was submitting pay requests      After a joint investigation by the Amtrak OIG and the
                    for overtime that he did not work, and that the foreman       U.S. Railroad Retirement Board’s Office of Inspection
                    utilized an Amtrak truck to perform personal business.        General, a former Amtrak employee is being prosecuted
                    The investigation, culminated in the foreman admitting        in civil court for $8,000 in fraudulently obtained benefits.
                    to submitting overtime on at least 10 occasions for a         The employee has agreed to provide full restitution to
                    total of approximately 80 hours. The foreman admitted         the Railroad Retirement Board, civil fines, and penalties.
                    to using the truck on two other occasions for personal
                    use. A company hearing was held and the foreman was
                    found guilty and terminated.

    Office of
Inspector General
       20
                                                                       Significant Activities: Investigations


Conflict of
Conflict of Interest
            Interest and
                     and Abuse
                         Abuse                                  Management agreed that in order to reduce or eliminate
                                                                the costs for damage claims to the superintendent’s
                                                                personal car and reduce the appearance of any
Husband and Wife Overlapping Projects
                                                                improprieties the superintendent should: take advantage
An OIG investigation substantiated an allegation that a
                                                                of a company vehicle when on company business; and,
senior level engineering director had a conflict of interest
                                                                should the superintendent require travel for personal
when he supervised work performed by a consulting firm
                                                                business, he should consider using a rental car. The
for which his wife worked. His wife worked on Amtrak
                                                                manager reimbursed the company for $1,269.69.
projects that interacted with the same projects on which
he worked. Further investigation showed that the director
                                                                Rude, Abusive, and Intimidating Behavior
used the billing address of his wife’s consulting firm as his
                                                                Manager disciplined.
home address on personal documents. The director and
                                                                During this reporting period and after an extensive
the former Information Technologies (IT) senior director
                                                                OIG investigation, a New York assistant superintendent
were listed as professional references for the consulting
                                                                received a 10 day suspension, an official reprimand and
firm owned by the director’s wife. The OIG’s investigation
                                                                60 days of probation for rude, abusive and intimidating
further revealed that the director as well as high-level
                                                                behavior toward employees.
members of Amtrak’s IT Department compromised
Amtrak systems by sharing computer access codes with
                                                                Misuse of Accumulated Sick Time
the director’s wife, a non-Amtrak employee.
The OIG’s investigation resulted in the director receiving
                                                                Fraudulent Sick Leave
a letter of instruction for his actions and a department-
                                                                $4,000 lost.
wide memorandum being sent to all engineering
                                                                The OIG investigated a recently retired Amtrak employee
employees advising them not to share their electronic
                                                                who entered employment with the Department of
passwords with anyone.
                                                                Corrections Academy in Sacramento, California. Prior to
                                                                retirement, the employee presented a plan to his manager
Auto Train Liability Claims
                                                                wherein he would use his accumulated sick time along
$1,269.69 recovered.
                                                                with his vacation and personal days to supplement his
The OIG received an allegation that a manager of the
                                                                income. Without conferring with her superiors or the
Auto Train (AT) requires passengers with luxury vehicles
                                                                law department, the manager allowed the ex-employee
to sign a waiver releasing Amtrak from any liability in the
                                                                to collect nearly $4,000 he was not entitled to receive.
event that their vehicle is damaged during transportation.
                                                                This investigation was referred to management for
However, the Superintendent had transported his
                                                                appropriate discipline to be assessed to the manager.
personal vehicle aboard AT and submitted several claims
                                                                The manager was suspended for 30 days.
for damage done to his vehicle during transport without
executing the release.
                                                                Contract Awarding Process
The OIG’s investigation confirmed that the manager
submitted three claims for damage to his personal
                                                                “LA Run Through” Track Project Contract Award
vehicle during transport aboard the AT. Amtrak paid two
                                                                Irregularities
of the claims. This violated company policy and exposed
                                                                The “LA Run Through” was a joint investigation into a
the company to undue liability. The OIG reported the
                                                                construction contract to build a connection into the main
transgressions to management along with specific
                                                                track in Los Angeles. The OIG conducted this investigation
recommendations.




                                                                                                                                 Office of
                                                                                                                             Inspector General
                                                                                                                                    21
    Significant Activities: Investigations


                    with the California State Department of Justice. Numerous
                    interviews were conducted regarding the manner in which
                    this contract was awarded and concerns were expressed
                    at allowing a flawed Request for Proposal to continue
                    without correcting the flaw. A major concern was that
                    the time limit for the required environmental reports
                    was perceived to be an unattainable goal. As a result
                    of this investigation OIG issued a Management Report
                    recommending changes to the contract awarding process.
                    These recommendations were accepted and included
                    in a recent training session given to the Materials and
                    Procurement Division of Engineering.

                    Violation
                    Violation of
                              of Trust
                                 Trust and
                                       and Honesty
                                           Honesty Standard
                                                   Standard                        The OIG discovered that access to the APD system was
                                                                                   not being withdrawn in a timely manner from employees
                    Falsification of Labor Hours at Major                          who either had left the company or who no longer should
                    Mechanical Back Shop                                           have had access to the system. As a result of these
                    The OIG conducted an investigation into false                  findings, APD has reinforced the procedure of disabling
                    statements and misrepresentations made to the OIG by           access for terminated employees in a timely fashion.
                    five management employees regarding the intentional            In addition, a new and more secure Police/Record
                    miscoding of labor hours in Coach Shop II at the Beech         Management Information System is being implemented
                    Grove maintenance facility. The OIG concluded that             which has improved intrusion alert and preventative
                    management employees had made misrepresentations               features.
                    and / or false statements to OIG Investigators and
                    Auditors. The OIG issued an Administrative Report of its       Amtrak Private Car Tariff Violations
                    findings in this matter to the Chief Mechanical Officer        $131,000 recovered.
                    but has not received a response to date.                       The OIG conducted an inquiry into Amtrak’s private car
                                                                                   operation and found that both Private Car and Finance
                    Recommendations to
                    Recommendations   to Enhance
                                         Enhance Efficiency
                                                 Efficiency                        Department management had failed to follow the
                    and Effectiveness
                    and Effectiveness                                              guidelines set forth in the Private Car Tariffs issued in
                                                                                   2005 and 2007. The OIG found that car movement fees
                                                                                   were not collected in a timely manner; private cars were
                    Shift Differentials                                            allowed to move while having outstanding balances; fee
                    Questioned costs of $421,572.                                  exemptions were granted without proper documentation;
                    The OIG conducted proactive inquiry into the various           late fees were not collected in accordance with the policy;
                    job assignment-based rate differentials paid to Amtrak         and more than $131,000 in fees were not invoiced.
                    employees at various mechanical facilities. As a result,
                    OIG’s investigation identified 140 employees in Delaware       Management responded to OIG’s report and indicated
                    who were receiving rate differentials for which they were      that all of the provisions of the Tariff would be enforced,
                    not entitled. Those differentials were valued in excess of     and that Private Car management would work with
                    $421,572 for the 18 month period between January 1,            management in Finance to ensure that all fees, including
                    2007 and July 7, 2008. The OIG discussed these findings        late fees, were properly invoiced and collected in a
                    with Mechanical Department Management who agreed               timely manner. Management invoiced and collected the
                    that this was an ongoing problem at Wilmington Shops.          $131,000 in outstanding revenues.
                    The Mechanical Department is currently in the process of
                    correcting the problem, identified by the OIG, by abolishing   Unauthorized Release of Amtrak Records
                    and re-advertising all job positions at the proper rates.      The OIG issued an Administrative Report regarding
                                                                                   a former Engineering employee concerning his
                    Computer Intrusion – 911 Call Center                           employment as a Consultant. The OIG found that the
                    Amtrak experienced a computer intrusion which                  former Engineer had released Amtrak records and
                    compromised the Amtrak Police Department’s (APD) 911           information without Amtrak authorization. Engineering
                    Call Center and other security functions. With the Call        management formally notified the former employee that
                    Center disabled, the APD temporarily could not call in         his release of Amtrak information was improper and in
                    and report crimes or other important information which         violation of policy and ordered the employee to desist
                    were police related. 	                                         from any further release of Amtrak information and to
    Office of
Inspector General
                                                                                   promptly return all confidential information or materials
       22
                                                                        Significant Activities: Investigations


in his possession to Amtrak. Management issued a Letter         management personnel, management acknowledged
of Instruction to all Engineering managers to review            full responsibility for the failures cited in the report
Amtrak’s Ethical Conduct and Conflict of Interest Policy        and agreed to take the appropriate actions to address
with all Engineering employees.                                 and correct the failures or oversights including the
                                                                following:
Diesel Fuel Policy Guidelines – Revisions
                                                                H	The Crew Base Manual will be appropriately and
Needed
                                                                  consistently updated and its contents adequately
Amtrak has and continues to rely heavily on diesel fuel
                                                                  communicated and enforced by all governed parties.
to move Amtrak’s long haul trains throughout its national
route system. In March 2005, guidelines were revised and        H	A thorough review of the current volume of excessive
updated to incorporate the receipt, reconciliation, invoice,      debits is underway with a plan being developed to
and payment process of diesel fuel transactions into              address current backlog and avoid future infractions.
Amtrak’s electronic software system and to address the
                                                                H	All crew base management staff will be retrained on the
environmental issues. Although the original guidelines
                                                                  debriefing process as well as the proper administrative
were cancelled, the revision was never published or
                                                                  process pertaining to deviation from standard policy
distributed. As a result, of the cancellation of the original
                                                                  and practice.
guidelines and delay in posting the revised procedure,
Amtrak Division and Corporate personnel have performed          H	Crew base management staff will be trained and held
and continue to acquire and manage diesel fuel activities         accountable for consistent practices regarding debit
without an established corporate policy.                          timelines.
Amtrak Management’s decision to delay the distribution          H	Crew base management has been counseled regarding
of the revised procedure may have caused inconsistencies          post ACS Debit Protests and reminded of their
in handling some diesel fuel activities. The delay in             accountability.
the posting and distributing of the revised procedure
                                                                H	Crew base management has been counseled regarding
could have hindered the corporation’s ability to meet
                                                                  inconsistencies in discipline practices.
operational and finance goals as it relates to diesel fuel
expenses.                                                       H	Crew base management will be counseled in being
                                                                  proactive in monitoring and resolving known or
As a result of this review and a parallel audit, the OIG
                                                                  repetitive problems.
recommended that Amtrak form a Fuel and Energy
Management Committee. The OIG sponsored a fuel
energy summit meeting in July, inviting senior field and         PROSECUTIVE REFERRALS
corporate maintenance, operations, and procurement               4/01/08 – 9/30/08
staff. The Amtrak management team decided to form                Referrals	              U.S.	          Local/	         TOTAL
the new steering committee, chaired by the chief                 	                     Attorney	        State
operating officer. The OIG will report on the progress
                                                                 Criminal Cases
and contributions of this new group in future reports.
                                                                 Indictments	               5	             3	              8
                                                                 Convictions/Pleas	         6	             0	              6
Revenue Protection Unit
Revenue Protection Unit                                          Pending*	                 11	             3	             14
                                                                 Declinations	              0	             1	              1	
Violation of Policy
In a previous reporting period, RPU conducted an                 TOTAL			                                                 29
investigation to determine the knowledge, practice and
application of established policies and procedures by            Civil Cases
New York Crew Base personnel connected with Food                 Suits Filed	              0	              0	              0
and Beverage Service Operations. As a result of the              Settled	                  0	              0	              0
investigation, RPU determined there were numerous                Pending	                  0	              0	              0	
and consistent failures by management in its supervision
of and accountability for on board service employees,            TOTAL			                                                  0
specifically LSAs. During this reporting period, as a
result of the investigation and subsequent administrative        TOTAL CIVIL AND CRIMINAL		                               29		
referral, formal reprimands were assessed for five of the
applicable New York management staff.                            *Some of these will be reflected under pending civil cases because
                                                                 these matters are being handled by the United States Attorney’s
In addition to the formal reprimands for the five key            Office in parallel proceedings. In cases where there have been
                                                                 convictions or pleas, we may be awaiting sentencing, restitution         Office of
                                                                 or other resolutions.                                                Inspector General
                                                                                                                                             23
    Significant Inspections and Evaluations


                    Amtrak Mechanical Operations                                 	
                                                                                 To assist with this initiative, the OIG has engaged a
                    OIG continuing to help with implementation of                full-time consultant with considerable experience with
                    previous recommendations                                     diesel locomotive maintenance operations to work
                    Amtrak Mechanical Operations -- OIG                          with and advise Amtrak’s Mechanical Department.
                    continuing to help with implementation of                    This consolidation has been completed, but additional
                    previous recommendations                                     assistance is being provided to insure that benefits are
                                                                                 achieved. In addition to this specific effort, the OIG is
                    In September 2005, the OIG issued report E-05-04,
                                                                                 providing advice and assistance with other initiatives as
                    which resulted from a year-long system-wide review of
                                                                                 part of teams established to improve the efficiency and/
                    Amtrak’s Mechanical Maintenance Operations. In this
                                                                                 or effectiveness of the maintenance operation.
                    report, the OIG recommended that Amtrak adopt a more
                    modern maintenance philosophy based on Reliability-
                                                                                 Safety and Security
                    Centered Maintenance (RCM). An RCM-based program             Cost Avoidance
                    requires that all maintenance activities be supported by
                    sound technical and economic justifications. The OIG’s       Locomotive Camera Installations – OIG-
                    report recommended specific actions that Amtrak should       initiated project expected to show significant
                    take to transition to RCM and to make the operations         reduction in settlement costs
                    more efficient. For the past three years the OIG has been    The OIG is facilitating a project with the Mechanical
                    working with the Mechanical Department to help them          Department for the installation of 30 cab-mounted
                    implement the OIG recommendations.                           locomotive video cameras. Freight railroads have shown
                                                                                 that these types of cameras have made a huge difference
                    Implementation of Reliability-Centered
                                                                                 in their ability to defend themselves in claims involving
                    Maintenance
                                                                                 grade-crossing accidents, thereby significantly reducing
                    Although day to day administration of this initiative is     settlement costs and court awards from these types
                    now under the Chief Operating Officer (COO), the OIG         of lawsuits. This OIG initiated, limited-scope project
                    remains engaged in an oversight role to help facilitate      is intended to provide experience with the cameras to
                    progress. The OIG continues to monitor implementation        allow Amtrak to collect lessons learned and update its
                    and provides advice and recommendations to help              technical specifications. Although only 16 cameras have
                    Amtrak overcome implementation challenges and help           been installed to date, three collisions have already been
                    insure that benefits are achieved.                           captured by the cameras, clearly showing the cause of
                                                                                 the incidents. Responding to these initial results, Amtrak
                    Equipment Reliability Improvements
                                                                                 has procured additional cameras and plans on installing
                    The OIG continues to facilitate and support the              over 200 cameras on the remainder of Amtrak’s diesel
                    establishment of teams dedicated to conducting Root          locomotive fleet in FY 2009. The installation on the
                    Cause Analyses into recurring equipment failures. The        ACELA trainsets and the electric locomotives is planned
                    teams that have been established have made significant       to follow in FY 2010.
                    contributions to the improvements in reliability of both
                    the Acela trainsets and the High Horsepower (HHP)            Procurement and Material Supply
                                                                                 Procurement and Material
                                                                                 Chain Management         Supply
                                                                                                   – OIG facilitating
                    Locomotives. Efforts to improve on these initial successes
                                                                                 Chain Management  –
                                                                                 improvement efforts OIG facilitating
                    and expand to other fleets of equipment are on-going.
                                                                                 improvement efforts
                    Mechanical Maintenance Facility
                    Rationalization and Process Improvement                      Alstom Parts Contract
                                                                                 $2,495,137.20 recovered.
                    Some of the recommendations in our report on
                                                                                 The OIG continues its efforts in facilitating improvements
                    Mechanical Maintenance Operations addressed
                                                                                 and resolving shortfalls identified in our initial evaluation
                    rationalizing Amtrak’s maintenance facilities and
                                                                                 of the Acela Parts Contract. As reported previously,
                    streamlining Amtrak’s maintenance processes. These
                                                                                 Amtrak entered into a contract with Alstom TLS in 2006
                    recommendations are in various stages of implementation.
                                                                                 to supply and manage the parts inventory for the Acela
                    One of the improvement efforts that the OIG is heavily
                                                                                 trainsets. This contract has an estimated value of close
                    involved in is the movement of all P42 Diesel Locomotive
                                                                                 to $200 million over the five-year term. Based on the
                    maintenance to Chicago. Through consolidation and
                                                                                 value of the contract and the importance of the contract
                    the implementation of a new, streamlined maintenance
                                                                                 to the success of Amtrak’s premium Acela service, the
                    philosophy, the OIG estimates maintenance costs can be
                                                                                 OIG continues to work with Amtrak’s Mechanical,
                    reduced more than $5 million per year.
    Office of                                                                    Procurement and IT departments to ensure that Amtrak
Inspector General
       24
                                                               Significant Inspections and Evaluations


adequately measures and monitors the contractor’s
performance. The OIG is in the process of developing a
“lessons learned” report as a guide for Amtrak to use in
managing similar contracts in the future.
As part of this effort, the OIG questioned whether
Amtrak was getting proper credit for components
returned to inventory after bench testing. Based on the
OIG’s inquiry, Amtrak received a credit of $2,495,137.20
for overcharges during the period of September 2007 to
February 2008.
In addition, Amtrak and Alstom agreed to a new
methodology to properly calculate the costs for
component repairs and testing. We are continuing to
monitor this to insure that controls are put in place to
properly identify all components returned to inventory
after bench testing and/or repair.

Mechanical Supply Chain Effectiveness
At the request of the previous Vice President of
Procurement, the OIG sponsored and helped to
facilitate a major initiative to improve the efficiency and
effectiveness of the material supply chain in providing
parts and materials for Rolling Stock maintenance. Cross-
functional teams were established to evaluate existing
practices in demand planning, supplier management,
order fulfillment and warranty management. Facilitated        European rail systems to identify any “best practices”
by industry experts from the Thomas Group, the teams          that Amtrak could adopt. The visit to the first set of
reviewed existing processes and revised them to more          railroads in Switzerland, Austria, and Great Britain
align with industry best practices.                           revealed technology or practices that Amtrak:
After the arrival of the new Chief Logistics Officer, this    H	is already in the process of implementing (e.g. hollow
initiative was transitioned into an overall continuous          switch ties);
improvement effort solely managed within the current
Procurement and Materials Management Department.              H	is planning to test in the Northeast Corridor (e.g. fixed
The OIG is in the process of producing a report that will       point surfacing);
documents the results achieved through this initiative        H	is planning to further investigate for potential benefits,
and make recommendations on areas where additional              (e.g. remote monitoring of switch controls);
opportunities for improvement are available.
                                                              H	wants to implement with FRA approval (e.g. use of
Improvements                                                    image recognition technology to help reduce the
Improvements for
              for Efficiency
                  Efficiency and
                             and
Effectiveness                                                   frequency and cost of inspections); or,
Effectiveness
                                                              H	considers to be inappropriate or non-productive.
Amtrak’s Right-of-Way Maintenance –                           A second visit is currently being conducted to identify the
performance and costs benchmarked against                     best practices of an additional three European railroads.
European Railroads                                            At the conclusion of the second visit, a formal report
The OIG has completed the first phase of its evaluation       will be produced documenting the results and making
that compares the performance and costs of Amtrak’s           recommendations from the lessons learned.
right-of-way (ROW) maintenance programs to that of the
European rail passenger systems. The results of this phase    Human Capital Management – evaluation of
have been used to identify the areas of opportunity for       Amtrak preparations for the Human Capital
Amtrak to improve the performance and efficiency of its       challenges facing it in the next five years
ROW maintenance programs. The OIG along with senior           The OIG evaluation continues to evaluate how
staff members from Amtrak’s Engineering Department            effectively and efficiently Amtrak manages its Human
are currently in the process of visiting the top performing   Capital throughout the company. As the OIG previously              Office of
                                                                                                                             Inspector General
                                                                                                                                    25
    Significant Inspections and Evaluations


                    reported, the evaluation was launched in November             To help conduct this analysis the OIG contracted the services
                    2007 to ensure Amtrak was postured to address the             of the European-based BSL Management Consultants.
                    numerous human capital challenges facing the company          BSL has extensive experience benchmarking the relative
                    over the next five years. The predominant challenge is        financial and operating performance of railroads from
                    due to the large number of employees eligible to retire       around the world and they have the requisite knowledge
                    over this period and the increased competition for            of the railroads unique organizational structures and data
                    replacement employees within the Railroad Community,          sources that enabled them to make valid comparisons of
                    as well as in the private and government sectors. The         their performance. The comparisons were developed using
                    evaluation continues to examine how Amtrak identifies         data for the 1995 to 2006 time period from the publicly
                    its manpower needs and then how the company recruits,         available National Economics Research Associates studies
                    hires, develops and retains the required employees with       on European railroad funding.
                    the necessary skills to accomplish Amtrak’s mission,
                                                                                  Based upon a representative sample of European
                    goals and objectives.
                                                                                  Passenger Train Operations over a multi-year period, we
                    To date, the evaluation team has completed several            found that:
                    evaluation milestones including conducting more than
                                                                                  H	When all revenues and expenses for the entire
                    100 interviews with management and human resources
                                                                                    passenger train system are taken into consideration,
                    (HR) professionals throughout the company; conducting
                                                                                    European Passenger Train Operations operate at a
                    an internal HR Department employee climate survey and
                                                                                    financial loss and consequently require significant
                    presenting the survey results to HR management and
                                                                                    Public Subsidies.
                    employees; and compiling extensive Amtrak HR data to
                    be used in benchmarking Amtrak’s processes within the         H	The average annual subsidies for European Passenger
                    Railroad, HR and international communities. The OIG             Train Operations are much higher than those for
                    plans to issue a final report in early 2009.                    comparable Amtrak services.

                    Revenue Protection Initiatives – OIG continuing               Comparison of Reports on the Impact of
                    involvement                                                   Poor OTP
                    Amtrak employees handle approximately $110 million            Report E-08-03 – Issued 05/15/08
                    annually in on-board ticket and food and beverage
                                                                                  In May 2008, the OIG issued report E-08-03, which
                    sales. A number of these dollars are continually at risk
                                                                                  explains the reasons for the apparent discrepancy
                    with respect to fraudulent employee behavior. Thus,
                                                                                  between the estimate of financial benefits from improved
                    the Inspections and Evaluations staff continues to work
                                                                                  Long Distance Train On-Time-Performance (OTP) that
                    closely with the Transportation, Service Operations and
                                                                                  was made by the Department of Transportation-Office
                    the Marketing and Product Management departments to
                                                                                  of Inspector General (DOT-OIG) in DOT-OIG report CR-
                    advise on conductor and OBS remittance policies, OBS
                                                                                  2008-047, and the estimate that the Amtrak-OIG made
                    accounting procedures and commissary operations. The
                                                                                  in report E-06-05, issued September 29, 2006.
                    staff also participates directly on a number of steering
                    teams – the Point of Sales Change Management Working          Report E-08-03 concluded that it would be inadvisable
                    Group, the Food and Beverage (F&B) Loss Prevention            for Amtrak to use the DOT-OIG estimates for budgeting
                    Working Group, the City of New Orleans Pilot Team, the        or decision making purposes without additional detailed
                    Service Standards Accounting Policies and Procedures          scrutiny to either verify or refute their estimates. The
                    Committee and the Warehouse Management Transition             DOT-OIG estimates for labor cost savings appear to
                    Planning and Implementation Steering Team.                    be overly aggressive and their estimate of incremental
                                                                                  performance payments appears to be significantly
                    Significant Reports Issued during                             understated. Additionally, the significantly higher
                    Significant Reports Issued during
                    Reporting Period                                              incremental revenue estimate is based upon an unknown
                    Reporting Period
                                                                                  and untested “econometric” model.
                    Public Funding Levels of European Passenger
                    Railroads
                    Report E-08-02 – Issued 04/22/08
                    In April 2008, the OIG issued report E-08-02 that analyzed
                    the relative financial performance of European Passenger
                    Train Operations, quantified the amount of public funding
                    they were provided to remain operationally viable, and then
    Office of       compared the European funding levels to that of Amtrak.
Inspector General
       26
                                                                                                                                                Performance Measures


FY 2009 Performance Measures
4/01/08 – 9/30/08
Audit Results	                                                                                                                                                Total
Congressional Testimony . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
Costs Questioned/Funds to be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $5,197,767
Management Decisions to Seek Recoveries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $543,991

Investigative Results 	                                                                                                                                                  Total
Indictments/Informations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Convictions  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Fines . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  $200.00
Court Ordered Restitutions/Civil Judgments/Administrative Restitution  . . . . . . . . . . . . . . . . . . . . . . . . . $301,010.83
Recoveries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $24,158.00
Years Sentenced . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
Years Probation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Years Supervised Release . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Hours of Community Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
Debarments and Other Administrative Action  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  n/a
Hotline Complaints Received . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Hotline Complaints Investigated by OIG  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Hotline Complaints Referred to Operating Administrations or Other Agencies*  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7



FY 2009 Advisory Functions
4/01/08 – 9/30/08
Advisory Functions	                                                                                                                                              Total
FOIA Requests Received . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
FOIA Requests Processed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Legislation Reviewed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Regulations Reviewed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0




                                                                                                                                                                                     Office of
                                                                                                                                                                                 Inspector General
                                                                                                                                                                                        27
Appendices




       Office of
   Inspector General
          29
    Appendix 1


                    office of Inspector General
                    Audit Reports Issued with Questioned CostS
                    4/1/08 – 9/30/08
                    	                                      Number	   Questioned Costs	   Unsupported Costs
                    A.	For which no management decision
                       has been made by the commencement
                       of the reporting period.	                2	          $540,314	                  $0

                    B.	Reports issued during the
                    	 reporting period.	                        9	        $1,090,310	                  $0

                    Subtotals (A + B)	                         11	        $1,630,624	                  $0


                    LESS

                    C.	For which a management decision
                    	 was made during the reporting period.	 5
                    	 (i) dollar value of recommendations
                    	 that were agreed to by management.		     $543,991	                               $0
                    	 (ii) dollar value of recommendations
                    	 that were not agreed to by management.			                                        $0

                    D.	For which no management decision
                    	 has been made by the end of the
                    	 reporting period.	                        6	        $1,086,633	                  $0




    Office of
Inspector General
       30
                                                                              Appendix 2


office of Inspector General
Audit Reports Issued with funds to be put to better use
4/1/08 – 9/30/08
	                                                    Number	   Dollar Value
A.	For which no management decision
   has been made by the commencement
   of the reporting period.	                              1	   $1,300,000

B.	Reports issued during the
	 reporting period.	                                      1	   $4,107,457

Subtotals (A + B)	                                        2	   $5,407,457


LESS

C.	For which a management decision
	 was made during the reporting period.	  1
	 (i) dollar value of recommendations
	 that were agreed to by management.		                         $4,107,457
	 (ii) dollar value of recommendations
	 that were not agreed to by management.		

D.	For which no management decision
	 has been made by the end of the
	 reporting period.	                                      1	   $1,300,000




                                                                                     Office of
                                                                                 Inspector General
                                                                                        31
    Appendix 3


                    Office of inspector General
                    detailed listing of all issued audit reports
                    4/1/08 – 9/30/08
                    Date	        Report	 Report Title	                              Questioned	   Unsupported	   Funds to be Put
                    Issued	      Number		                                                Costs	         Costs	     to Better Use

                    9/30/2008	 206-2008	   P-Card Review	                             $66,323	             $0	               $0
                    9/5/2008	 208-2008	    DMJM + Harris Inc Change Order	           $102,112	             $0	               $0
                    9/4/2008	 209-2008	    JJID Inc. - Drainage Improvement
                    		                     Overbrook to Merion PA	                   $122,697	             $0	               $0
                    9/18/2008	 216-2008	   Delaware Car Company
                    		                     Acela Refinishing	                        $126,566	             $0	               $0
                    6/3/2008	 219-2006	    East River Tunnel-Penn Station
                    		                     Ventilation Project	                         $8,996	            $0	       $4,107,457
                    5/22/2008	 301-2007	   Amtrak Leasing Practices	                        $0	            $0	               $0
                    5/14/2008	 301-2008	   Acela At Seat Cart Service
                    		                     Cost Benefit Assignment	                        $0	             $0	               $0
                    9/30/2008	 302-2008	   Boston Station Audit	                           $0	             $0	               $0
                    9/10/2008	 306-2007	   Judy Company Change Order Audit	          $230,733	             $0	               $0
                    8/21/2008	 401-2008	   Host RRCA & Operations
                    		                     Management Controls	                             $0	            $0	               $0
                    6/30/2008	 402-2008	   Employee Expense Receipt
                    		                     Compliance		                                    $0	             $0	               $0
                    5/28/2008	 403-2008	   Fuel Supply - Gas City Contract	          $423,224	             $0	               $0
                    7/24/2008	 501-2008	   Salinas Ticket Office - Special Audit	      $7,615	             $0	               $0

                    TOTAL: 				                                                     $1,090,310	            $0	       $4,107,457




    Office of
Inspector General
       32
                                                                                                              Appendix 4


Office of Inspector general
Management’s Commitment to Seek Final Action on Audits with Agreed
Questioned Costs and Funds to Be Put To Better Use (FBPTBU)
4/1/08 – 9/30/08
		                                                                          Questioned
	                                           No.	                                Costs*	   No.	      FBPTBU
A.	Agreed Questioned Costs and FBPTBU for
   which management action is needed at the
   beginning of the reporting period.	      10	                             $1,705,958	   2	     $5,090,505

B.	Agreed Questioned Costs and FBPTBU for
   which management action is needed from
   reports issued during the reporting period.	                   5	         $543,991	    1	     $4,107,457

Subtotals (A + B) requiring management action.	                   15	       $2,249,949	   3	     $9,197,962

C.	Management actions taken during the
   reporting period:**	                                           9		                     1
	 (1) Collections (Cost recovery)		                                          $740,739		                N/A
	 (2) Cost avoidance (Contracts)		                                                  $0		               N/A
	 (3) Adjusted material value (Inventory parts)		                                   $0		               N/A
	 (4) Future cost savings
  (Improved management controls)		                                                  $0		               N/A
	 (5) Management reduction of costs (Negotiations)		                        $1,455,958		               N/A
	 (6) More efficient use of funds (FBPTBU)		                                      N/A		
	 (7) Management reduction of costs
  (Additional evidence)		                                                   $1,498,961		               N/A
	 (8) Management unwilling to pursue		                                       $165,879		                N/A
	 (9) Management unwilling to pursue (FBPTBU)		                                   N/A		          $4,107,457

Subtotals (1to 9) of management actions.		                                  $3,861,537		         $4,107,457

D. Agreed Questioned Costs and FBPTBU for
   which management action is needed at the
   end of the reporting period.	                                  8	        $1,197,223	   2	     $5,090,505

*Questioned Costs include both Supported and Unsupported Costs.
**Includes management actions pertaining to reports previously published.




                                                                                                                     Office of
                                                                                                                 Inspector General
                                                                                                                        33
    Appendix 5


                    OFFICE OF INSPECTOR GENERAL
                    REVIEW OF LEGISLATION AND REGULATIONS
                    4/1/08-9/30/08
                    Section (4)a of the Inspector General Act of 1978, as amended, provides that the Inspector General shall “review
                    existing and proposed legislation and regulations relating to programs and operations of such establishment and
                    to make recommendations in the semiannual reports …concerning the impact of such legislation or regulations
                    on the economy and efficiency in the administration of programs and operations administered or financed by such
                    establishment or the prevention and detection of fraud and abuse in such programs and operations.”
                    Furthermore, Section 4(a) states that it is “the duty and responsibility of the Inspector General “to recommend policies
                    for, and to conduct, supervise, or coordinate relationships between such establishment and other Federal agencies,
                    State and local governmental agencies, and nongovernmental entities with respect to (A) all matters relating to the
                    promotion of economy and efficiency in the administration of, or the prevention and detection of fraud and abuse in,
                    programs and operations administered or financed by such establishment, or (B) the identification and prosecution
                    of participants in such fraud or abuse.”
                    In order to enhance the OIG’s ability to meet these Section (4)a, responsibilities, the OIG created during the last
                    reporting period a new group, Management and Policy, to ensure compliance with current and emerging legislation,
                    and government regulations, directives, and mandates. Management and Policy is the primary liaison with the
                    Government Accountability Office, and other government departments and agencies.
                    In addition, the OIG has an agreement with Amtrak’s Government and Public Affairs Department that allows the OIG
                    to review and comment on the company’s annual grant and legislative request, and other legislative and regulatory
                    concerns of the company. Existing legislation and regulations are reviewed, as necessary, as a part of every audit,
                    inspection and evaluation, and investigation.
                    During the period covered by this report the OIG continued to cooperate with and monitor Congressional efforts to
                    draft and enact Amtrak reauthorization legislation, as well as legislation intended to update the Inspector General
                    Act. The specific legislation reviewed was:
                    HR 2638
                    The Consolidated Security, Disaster Assistance, and Continuing Appropriations Act, 2009 passed by Congress and
                    signed by the President in September of 2008, providing continuing appropriations for all agencies and activities
                    that would be covered by the regular fiscal year 2009 appropriations bills, until enactment of the applicable regular
                    appropriations bill or until March 6, 2009, whichever occurs first. The continuing resolution funds the OIG at our fiscal
                    year 2008 level of $9,250,000 for the first six months of fiscal year 2009 or $750,000 below the newly authorized
                    level for the fist six month of FY 2009. The OIG continues to work with the Appropriations Committees to ensure
                    that we are fully funded at our authorized level through the end of fiscal year 2009, in order to fulfill our mandate
                    responsibilities.
                    H.R. 928
                    Improving Government Accountability Act passed both chambers of Congress and was sent to the President for
                    signature. H.R. 928 Amends the Inspector General Act of 1978 to enhance the independence of the Inspectors
                    General, and creates a Council of the Inspectors General on Integrity and Efficiency. The reauthorization reaffirms
                    the necessary independence of the Inspector General Office.
                    H.R.2095
                    To amend title 49, United States Code, to prevent railroad fatalities, injuries, and hazardous materials releases, to
                    authorize the Federal Railroad Safety Administration, and for other purposes. H.R.2095 incorporated language from
                    H.R.6003 to reauthorize Amtrak. This is Amtrak’s first reauthorization in 12 years.




    Office of
Inspector General
       34
                                                                          Appendix 6


OFFICE OF INSPECTOR GENERAL
SUMMARY OF REPORTS TO THE PRESIDENT OF AMTRAK CONCERNING INFORMATION OR
ASSISTANCE UNREASONABLY REFUSED OR NOT PROVIDED
4/1/08-9/30/08
Nothing to report this period.




                                                                                 Office of
                                                                             Inspector General
                                                                                    35
    Appendix 7


                    GLOSSARY OF AUDIT TERMS AND ABBREVIATIONS
                    The terms the OIG use in reporting audit statistics are defined below:
                    Questioned Cost -- Cost or expenditure of funds for an intended purpose that is unnecessary, unreasonable, or an
                    alleged violation of Amtrak’s corporate policy or procedure.
                    Unsupported Cost -- Cost that is not supported by adequate documentation at the time of the audit.
                    Funds to Be Put to Better Use -- Funds identified in an audit that could be used more effectively by taking greater
                    efficiency measures.
                    Management Decision -- Management’s evaluation of the OIG audit finding and its final decision concerning
                    agreement or non agreement with the OIG recommendation.
                    Abbreviations/acronyms used in the text are defined below:
                    ACL	    CCM Continuous Controls Monitoring                   HRG	      Amtrak’s Host Railroad Contract Administration
                    Amtrak	 National Railroad Passenger Corporation              ICP	      Internal Control Plan
                    APD	 Amtrak Police Department                                LIRR	     Long Island Railroad
                    APP	    Appendix                                             LSA	      Lead Service Attendant
                    BNSF	 Burlington Northern Santa Fe                           MBTA	     Massachusetts Bay Transit Authority
                    CA	     Amtrak’s Operations Management Department            MCCS	     Manual Credit Card System
                    CN	     Canadian Northern                                    NRPC	     National Railroad Passenger Corporation (Amtrak)
                    COO	 Chief Operating Officer                                 OBS	      Onboard Service
                    CP	     Canadian Pacific                                     OIG 	     Office of Inspector General
                    CRO	 Central Reporting Office                                OSSSO	    Office of Security, Strategy and Special Operations
                    DAI	    Delay Avoidance Incentive                            OTP	      On Time Performance
                    DIG	    Deputy Inspector General                             P2P	      Purchase-to-Payment
                    ERT	    East River Tunnel                                    PIP	      Performance Improvement Program
                    F&B	    Food and Beverage                                    P.L.	     Public Law
                    FLS	    New York City’s Fire and Life Safety program         RCM	      Reliability-Centered Maintenance
                    FRA	    Federal Railroad Administration                      ROW	      Right-of-way
                    FY	     Fiscal Year                                          RPU	      Revenue Protection Unit
                    G&A	 G&A General and Administrative                          SNS	      Salinas Amtrak Station
                    GSA	 Government Services Administration                      UP	       Union Pacific
                    HHP	 High Horse Power                                        U.S.C.	   United States Code
                    HR	     Human Resources




    Office of
Inspector General
       36
                                                                                       Reporting Requirements Index


INDEX OF REPORTING REQUIREMENTS PURSUANT TO THE INSPECTOR GENERAL ACT
AMENDMENTS OF 1988 (P.L. 100-504)

Topic	               Reporting Requirements	                                                             Page

Section 4(a)(2)	     Review of Legislation and Regulations 	                                            11, 34

Section 5(a)(1)	     Significant Problems, Abuses, and Deficiencies 	                                    12-26

Section 5(a)(2) 	    Recommendations for Corrective Action to Significant Problems 	                     12-26

Section 5(a)(3) 	    Previous Reports’ Recommendations for Which Corrective Action
	                    Has Not Been Completed	                                                             16-17

Section 5(a)(4) 	    Matters Referred to Prosecutive Authorities 	                                          23

Section 5(a)(5) 	    Information or Assistance Refused or Not Provided 	                                    35

Section 5(a)(6) 	    Audit Reports Issued in This Reporting Period 	                                        32

Section 5(a)(7)	     Summary of Significant Reports 	                                                    12-26
Section 5(a)(8)	     Audit Reports with Questioned Costs 	                                           12, 15, 17

Section 5(a)(9) 	    Audit Reports with Recommendations That Funds Be Put to Better Use 	         12-17, 31, 33

Section 5(a)(10) 	   Previous Audit Reports Issued with No Management Decision Made by
	                    End of This Reporting Period	                                                       12-17

Section 5(a)(11) 	   Significant Revised Management Decisions 	                                14, 16-17, 23-25

Section 5(a)(12) 	   Significant Management Decisions with Which the OIG is in Disagreement	               n/a




                                                                                                                      Office of
                                                                                                                  Inspector General
                                                                                                                         37
                                                                                                             Tell Us About It


Stop Fraud, Waste, Mismanagement, and Abuse
Who pays? You pay. Act like it’s your money…it is!

Tell Us About It
Maybe you are aware of fraud, waste, mismanagement, or some other type of abuse at Amtrak. Amtrak’s Office of
Inspector General has a toll free hotline number for you to call. You can write to the OIG.
The OIG will keep your identity confidential. If you prefer, you can remain anonymous. You are protected by law from
reprisal by your employer.


Call the hotline:
Nationwide (800) 468-5469
Philadelphia (215) 349-3065 or ATS 728-3065

Write to us:
Inspector General
P.O. Box 76654
Washington, DC 20013-6654
     National Railroad Passenger Corporation
               Office of the Inspector General
10 G Street, NE, Suite 3W-300, Washington, DC 20002-4285


               Amtrak is a registered service mark of the
               National Railroad Passenger Corporation.
